<html>
<title> - AFGHANISTAN 2014: YEAR OF TRANSITION</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                  AFGHANISTAN 2014: YEAR OF TRANSITION

=======================================================================



                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 11, 2013

                               __________

                           Serial No. 113-109

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
86-004                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable James F. Dobbins, Special Representative for 
  Afghanistan and Pakistan, U.S. Department of State.............     4
Mr. Michael J. Dumont, Deputy Assistant Secretary of Defense 
  Afghanistan, Pakistan, & Central Asia, U.S. Department of 
  Defense........................................................    15
Mr. Donald L. Sampler, Assistant to the Administrator, Office of 
  Afghanistan and Pakistan Affairs, U.S. Agency for International 
  Development....................................................    21

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable James F. Dobbins: Prepared statement...............     7
Mr. Michael J. Dumont: Prepared statement........................    17
Mr. Donald L. Sampler: Prepared statement........................    23

                                APPENDIX

Hearing notice...................................................    62
Hearing minutes..................................................    63
The Honorable Edward R. Royce, a Representative in Congress from 
  the State of California, and chairman, Committee on Foreign 
  Affairs:
  Material submited for the record...............................    65
  Questions submitted for the record to the Honorable James F. 
    Dobbins......................................................    69
Questions submitted for the record by the Honorable William 
  Keating, a Representative in Congress from the Commonwealth of 
  Massachusetts, to:
  The Honorable James F. Dobbins.................................    71
  Mr. Donald L. Sampler..........................................    72
Questions submitted for the record by the Honorable Joseph P. 
  Kennedy III, a Representative in Congress from the Commonwealth 
  of Massachusetts, to the Honorable James F. Dobbins............    73


                  AFGHANISTAN 2014: YEAR OF TRANSITION

                              ----------                              


                      WEDNESDAY, DECEMBER 11, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Edward Royce 
(chairman of the committee) presiding.
    Chairman Royce. This hearing will come to order. We will 
ask all of the members to take their seats.
    I have been focused on Afghanistan since before 9/11, 
warning of an emerging terrorist sanctuary there in that part 
of the world. Today, the committee recognizes the tremendous 
sacrifices made by our troops, made by their families, so that 
America is safe from the type of attack that Osama bin Laden 
launched from Afghanistan. Next year, the administration plans 
to transition from combat operations to an advise and assist 
role in Afghanistan. And we need a workable and realistic 
transition plan in place.
    Last month, a bipartisan committee delegation led by 
Representative Adam Kinzinger, and joined by Representatives 
Scott Perry and Juan Vargas, traveled to Afghanistan and 
traveled to Pakistan, and these members collected information 
useful to this committee. So I thank them for their important 
oversight work. And I also want to recognize the committee's 
military advisor, Colonel Andrea Thompson, who has served tours 
in Afghanistan and who organized the trip.
    I am concerned that the administration has not adequately 
defined a mission in Afghanistan. U.S. troop strength will drop 
to 34,000 in 2 months. And pending a bilateral security 
agreement, these numbers will drop much lower. The remaining 
troops will have a limited role, as they should, but what will 
be our objective? What constitutes success?
    Insufficient planning for this transition could put 
American lives at risk. At present, it is questionable whether 
our diplomatic facilities are sufficiently equipped, physically 
and staffing-wise, to protect U.S. personnel. This danger will 
only increase as more troops withdraw, and transition planners 
better best figure out how to protect our personnel during this 
transition.
    Unfortunately, endemic corruption in Afghanistan places our 
aid programs there at constant risk of waste, of fraud, of 
abuse. And despite years of rule of law training, the Afghan 
Government has few workable safeguards in place to prevent the 
misuse of U.S. aid money.
    Widespread corruption in Afghanistan also threatens the 
Presidential and the provincial elections that are set for next 
April. Free and fair elections are essential, of course, to 
establishing a stable Afghan Government capable of preventing 
Taliban-induced chaos. A repeat of the widespread election 
fraud that we saw in 2009 would almost certainly undermine 
Afghans' faith in their government, dangerously setting back 
the country.
    Corruption hinders Afghanistan's economy. The country's 
mining sector could tap deposits of critical industrial metals 
by attracting more foreign investment, but that won't happen 
with its off-the-charts corruption in Afghanistan.
    On the security front, Pakistan's military and security 
service continue to complicate matters by supporting the 
Taliban. Pakistan is a double-dealer, paying lip service to 
cooperation with the United States, unfortunately while 
simultaneously undermining our primary objective of bringing 
Afghanistan under the control of a democratically-elected 
government.
    Lastly, Iran continues to support the Taliban while 
utilizing Afghanistan's banking system to circumvent U.S. and 
international sanctions. Iran will intensify its meddling 
during the transition, at our expense. And just yesterday, it 
was announced that President Karzai had agreed to a long-term 
friendship and cooperation pact with Iran. We need to counter 
this because, as you know, our troops continue to be targeted.
    Afghans will determine their future of course, not us. What 
we can do is help them develop a stable and reasonably 
democratic government, one respectful of universally recognized 
human rights. That is what most Afghans want, it is in our 
interests, and it is what our sacrifices demand we strive for.
    I will now turn to Mr. Ted Deutch for any opening statement 
he might want to make.
    Mr. Deutch. Thank you. Thank you, Mr. Chairman, and thank 
you to the panel for being with us today.
    We went to Afghanistan with the goal of rooting out al-
Qaeda. And we have, with the work and service of our nation's 
finest and bravest citizens, together with, it bears noting, 
the service and commitment of 48 of our allies and their 
bravest citizens.
    We have made tremendous gains in decimating al-Qaeda's core 
infrastructure, but there have also been tremendous gains in 
women's rights, in access to education, in maternal and child 
health. But 12 years later we still have 47,000 troops in 
Afghanistan, with the potential for thousands more to remain 
for many years.
    I am concerned that President Karzai's blustering over 
whether or not he will sign the bilateral security agreement 
risks destabilizing Afghanistan by destabilizing the security 
situation even further, and puts the safety of both U.S. 
personnel and Afghans in jeopardy.
    I hope President Karzai understands that he is risking 
Afghanistan's future by playing this very dangerous game on the 
bilateral security agreement. If he is truly committed to a 
long-term U.S.-Afghan partnership, he should cut the theatrics, 
including his latest move to negotiate a security pact with 
Iran, and he should sign the agreement.
    The patience of the Congress and the American people is 
wearing thin. Without a bilateral security agreement, it is 
possible that Afghanistan will once again become a safe haven 
for al-Qaeda, a worst-case scenario for the United States, and 
a legacy that I suspect President Karzai would very much like 
to avoid.
    I know that continuing to achieve strategic gains in 
Afghanistan is not going to be easy, but I fear that the 
potential of undoing these gains has far greater consequences 
for U.S. and for regional security.
    I look forward to discussing the path forward with our 
witnesses today, and I yield back.
    Thank you, Mr. Chairman.
    Chairman Royce. And our Chairman Emeritus, Ileana Ros-
Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    As chair of the subcommittee of jurisdiction over 
Afghanistan, and together with Chairman Chabot and the Asia and 
Pacific Subcommittee, we held two hearings this year that 
examined this very issue--the transition in Afghanistan and the 
way forward for the U.S., Afghanistan, and Pakistan.
    I also led a bipartisan congressional delegation to Kabul 
this past Memorial Day weekend with my wonderful colleagues, 
Mr. Kennedy and Dr. Bera, and had the honor to meet with our 
brave men and women who serve our country in Afghanistan, both 
as armed services and State Department personnel, and they do a 
tremendous job day in and day out.
    While in Afghanistan, we had the opportunity to speak with 
Mr. Karzai, and you never know what you are going to get. From 
our conversation, it seemed like then he was pretty optimistic 
about the final bilateral security agreement, was looking 
forward to its completion.
    Now, however, Karzai is balking at signing the bilateral 
security agreement, which his grand council endorsed, and as 
recently as this past weekend lashed out at the U.S. and 
accused us of threatening him. I am extremely concerned that 
these latest developments will damage our national security 
interests in the region, further destabilize the region, and 
Karzai's flirting with Iran is quite dangerous for our U.S. 
national security interests. So we remain quite perplexed and 
concerned.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you. This morning we are pleased to 
be joined by representatives of the U.S. Department of State, 
the U.S. Agency for International Development, and the 
Department of Defense.
    Ambassador James Dobbins currently serves as the Special 
Representative for Afghanistan and Pakistan. The Ambassador has 
held a number of senior positions at the State Department and 
White House. He was previously the Director of the RAND 
International Security and Defense Policy Center.
    We also have Michael Dumont, currently the Deputy Assistant 
Secretary of Defense for Afghanistan, Pakistan, and Central 
Asia. Prior to joining the Office of the Secretary of Defense, 
Mr. Dumont served as a Federal prosecutor in the Criminal 
Division of the U.S. Department of Justice, and managed the 
Justice Department programs in Iraq.
    Larry Sampler currently serves as the Assistant to the 
Administrator in the Office of Afghanistan and Pakistan 
Affairs. He previously worked at the U.S. Department of State, 
the Institute for Defense Analysis, and the United Nations 
Assistance Mission in Afghanistan.
    And, gentlemen, welcome. Without objection, your full 
prepared statements will be made part of the record. We are 
going to ask you each to summarize in 5 minutes your 
statements. And members here are going to have 5 days to submit 
statements and questions for the record that you might be asked 
subsequently to respond to, as well as any extraneous materials 
that they want to put into the record.
    So, Ambassador Dobbins, we will begin with you. Thank you, 
sir.

     STATEMENT OF THE HONORABLE JAMES F. DOBBINS, SPECIAL 
REPRESENTATIVE FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF 
                             STATE

    Ambassador Dobbins. Thank you, Mr. Chairman. In my oral 
remarks, let me concentrate on what I think is probably the 
most topical and immediately important aspect of our situation 
in Afghanistan, which is the fate of the bilateral security 
agreement and the prospects for a longer term American 
commitment.
    As I think you all know, President Karzai called a Loya 
Jirga, or grand council, to discuss the draft bilateral 
security agreement, which we and he had concluded. This 
involved 2,500 of Afghanistan's influential citizens from 
throughout the country. After 3 days of debate, the Loya Jirga 
overwhelmingly endorsed the BSA as written and urged President 
Karzai to sign it before the end of the year. This decision 
underscores the clear and strong desire of the Afghan people to 
continue their partnership with the United States and the 
international community.
    The United States agrees with the Afghan people. Signing 
the BSA will send an important signal to the people of Afghan 
and to the Taliban, to our allies and partners, and to the 
region. For the Afghan people, it will reduce anxiety and 
uncertainty about the future, allowing them to concentrate on 
the upcoming elections and to invest with confidence in their 
own economy.
    A signed BSA will tell the Taliban, who may think that the 
end of 2014 means the end of international support, that their 
only path to peace is by ending violence, breaking ties with 
al-Qaeda, and accepting the Afghan constitution. A signed BSA 
will assure the region that the United States will remain 
engaged and will not abandon Afghanistan, as we once did in 
1989 after the Soviet withdrawal.
    To our NATO allies and other international partners, a 
signed BSA will open the door for NATO to begin negotiations of 
its own status of forces agreement.
    For all of these reasons, the administration is committed 
to expeditious signature of the bilateral security agreement. 
Delaying signature is in no one's interest. A delay would add 
another element of uncertainty as Afghanistan prepares for the 
April 2014 Presidential elections. For the United States and 
our NATO allies, delay means a lack of clarity needed to plan 
for the post-2014 military presence. That, in turn, would 
jeopardize fulfillment of the pledges of assistance that NATO 
and other countries made in Chicago and Tokyo in 2012.
    As Ambassador Rice made clear during her recent visit to 
Kabul, although it is not our preference, without a prompt 
signature we will have no choice but to initiate planning for a 
2014 future in which there would be no U.S. or NATO troops.
    Let me make clear, however, that plans are not decisions, 
and assure you that we are not about to decide to abandon all 
we and the Afghan people have achieved over the past 12 years. 
Based on the results of the Loya Jirga, expressions of public 
opinion throughout the country, and discussions during my own 
visit to Kabul last week, I don't believe that there can be any 
serious doubt that the Afghan people want American and NATO 
forces to stay and recognize that the bilateral security 
agreement is a necessary prerequisite.
    The bilateral security agreement is also the keystone of a 
much wider international commitment involving over seven 
countries ready to provide economic and security assistance to 
Afghanistan beyond 2015. Afghanistan's regional neighbors, with 
the exception of Iran, also understand the importance of the 
BSA.
    I understand, for instance, that President Putin of Russia, 
President Xi of China, Prime Minister Singh of India, and Prime 
Minister Sharif of Pakistan have all personally urged President 
Karzai to conclude the bilateral security agreement. Several of 
these leaders are no fans of American military presence in 
Central Asia, but all of them seem to recognize that without a 
continued international military and economic support 
Afghanistan risks falling back into civil war, with the 
attendant rise in extremist groups, outflow of refugees, and 
disruptions in commerce that would threaten the region as a 
whole.
    Given this coincidence of Afghan public and regional 
governmental opinion, I see little chance that the bilateral 
security agreement will not eventually be concluded. Awaiting 
the arrival of the next Afghan President do so, however, will 
impose large and unnecessary costs on the American--on the 
Afghan people. Already the anxiety caused by President Karzai's 
refusal to heed the advice of the Loya Jirga is having that 
effect.
    While in Kabul last week I learned from the World Bank and 
other sources that the Afghan currency is slipping in value. 
Inflation is increasing. Capital is fleeing. Property values 
are dropping. Perhaps for the first time since 2001, the 
outflow of population exceeds the return of refugees.
    The longer this uncertainty about the future international 
commitment to Afghanistan continues, the more anxiety among the 
population will increase, potentially dominating the upcoming 
Presidential elections, threatening to turn these into a 
polarizing rather than a unifying experience for the country.
    Prolonged uncertainty over the bilateral security agreement 
will also erode larger international support for Afghanistan. 
In Tokyo and in Chicago, in 2012, the international community 
pledged billions of dollars to support the Afghan security 
forces and the Afghan economy beyond 2014. As in the United 
States, fulfillment of these pledges is dependent on public 
support and parliamentary approval.
    Prolonged delay in concluding the bilateral security 
agreement, and the also required NATO equivalent agreement, can 
only diminish the prospect that these pledges will be fully 
met.
    In sum, Mr. Chairman, I continue to believe that the 
bilateral security agreement will ultimately be concluded, but 
I am seriously dismayed at the cost to the Afghan people that 
delay--that significant further delay will cause.
    Thank you.
    [The prepared statement of Ambassador Dobbins follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you, Ambassador.
    We are going to go to Mr. Dumont next.

STATEMENT OF MR. MICHAEL J. DUMONT, DEPUTY ASSISTANT SECRETARY 
    OF DEFENSE AFGHANISTAN, PAKISTAN, & CENTRAL ASIA, U.S. 
                     DEPARTMENT OF DEFENSE

    Mr. Dumont. Chairman Royce, members of the committee, thank 
you for the opportunity to appear before you today to discuss 
the upcoming year of transition in Afghanistan.
    Before turning our attention----
    Chairman Royce. Mr. Dumont, just move the mic a little 
closer.
    Mr. Dumont. Before turning our attention to the upcoming 
year, I would like to quickly review the status of the security 
transition in Afghanistan. In June of this year, the Afghans 
reached a decisive milestone, assuming lead responsibility for 
security countrywide. This milestone also signaled the shift in 
the International Security Assistance Force's primary mission 
from combat to training, advising, and assisting the Afghan 
security forces.
    The ANSF, a large integrated force, are now successfully 
providing security for the people of Afghanistan. This past 
summer fighting season was the first time that both planned and 
executed with the Afghans wholly in the lead. The ANSF proved 
to be both capable and resilient, conducting nearly all combat 
operations across Afghanistan while taking the majority of the 
casualties. They successfully held the security gains of recent 
years, and the insurgency failed to achieve its stated 
objective.
    The fact that the ANSF, a force in its infancy just 4 years 
ago, is increasingly able to maintain the gains made by a 
coalition of 49 nations, is a significant accomplishment. As we 
look toward the coming year, DoD will focus on the key areas of 
support for a successful political transition in Afghanistan, 
continuation of the train, advise, and assist mission to 
develop the ANSF into a sustainable force, a narrowly focused 
counterterrorism mission, and the drawdown and realignment of 
U.S. forces for a post-2014 train, advise, and assist mission.
    Our train, advise, and assist mission will continue to 
emphasize developing ANSF capabilities to conduct high-level 
planning and execution of operations, as well as the capability 
to sustain and enable those operations.
    Ministerial-level assistance will continue to be focused on 
institutionalizing the systems and capabilities necessary to 
organize, resource, train, and sustain the ANSF. This will 
include acquisition, contracting, strategy and policy 
development, human resources, management, and financial and 
resource management. The ANSF can be a guarantor for a secure 
and democratic Afghanistan but not without continued progress 
toward developing a sustainable and professional force.
    As we draw down our presence, we will focus on improving 
accountability and increasing oversight of funding for the 
ANSF. This is to ensure adequate capacity and measures of 
accountability are in place as we incrementally increase direct 
contributions to the Afghan Government while their financial 
management capacity grows.
    Coalition forces are working with the Afghans to finish 
implementing automated systems that will increase transparency 
and accountability in the areas of pay, logistics, human 
resources, and financial management. They are also focused on 
developing the technical expertise necessary in the Afghan 
security ministries to plan, program, budget, and execute 
financial transactions to sustain the ANSF.
    Although the combat leadership shift from ISAF to the ANSF 
demonstrates first and foremost the capability and resolve of 
the Afghan security forces to secure their people and their 
nation, it also enables the United States and other coalition 
partners to reduce their forces.
    As President Obama announced in the State of the Union 
address in February 2013, the U.S. will reduce its force level 
to 34,000 personnel by February 12, 2014. This force level will 
generally be maintained through the election period to ensure 
we are able to provide support if requested.
    The steady pace of force level reductions from now to 
February 2014, and after the election period, will allow our 
train, advise, and assist effort to consolidate from lower to 
higher levels of command as the ANSF displays greater capacity. 
This progression will enable effective assistance as coalition 
forces drawn down and allow for a smooth transition of the ANSF 
to operate with reduced coalition support.
    The ANSF will exercise greater autonomy and leadership of 
security operations while still having access to support from 
ISAF as required and as available. While this process is 
underway, NATO remains on track to bring the ISAF mission to a 
close by the end of 2014 and transition to the new NATO train, 
advise, and assist mission.
    The mission for U.S. forces in Afghanistan is also shifting 
to a continued counterterrorism mission against al-Qaeda and 
its affiliates in training, advising, and equipping Afghan 
forces as part of the NATO mission. As the President has made 
clear, however, the United States must secure an agreement that 
protects U.S. troops and must have an invitation from the 
Afghan Government to fulfill the promise of the post-2014 
partnership discussed at the 2012 Chicago NATO summit.
    We welcome the Loya Jirga's endorsement of the bilateral 
security agreement, and we are prepared to sign the agreement. 
Concluding the BSA promptly would be an important signal to the 
people of Afghanistan, to the Taliban, and our allies, and to 
the world that we intend to continue our partnership in support 
of Afghanistan.
    After more than a decade of dedication and sacrifice by our 
forces, our coalition partners, and the Afghan people along 
multiple lines of effort, we have seen remarkable turnaround in 
Afghanistan. Today, the Afghan people have greater economic 
opportunity, greater access to health care, education, and more 
freedoms and individual rights than in the past.
    Thank you for continuing to support--your support for the 
mission in Afghanistan and our service men and women. I look 
forward to answering your questions.
    [The prepared statement of Mr. Dumont follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Thank you.
    Mr. Sampler.

     STATEMENT OF MR. DONALD L. SAMPLER, ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Sampler. Chairman Royce, members of the committee, 
thank you for allowing me the opportunity to testify before you 
today. I have been working on and in Afghanistan, in both 
civilian and military roles, since 2002. In addition to having 
worked with the Afghan Emergency Loya Jirga, and then the 
Afghan Constitutional Loya Jirga, I have served as a 
representative of an international NGO, and as Chief of Staff 
of the U.N. Assistance Mission in Afghanistan.
    After the fall of the Taliban, I saw firsthand an 
Afghanistan that had been devastated by decades of conflict. 
The unprecedented investment of U.S. taxpayers and the 
international community, in partnership with the Afghans 
themselves, has created transformational changes in Afghanistan 
that are reflected in the United Nations 2013 Human Development 
Index. Afghanistan improved its score in that index by more 
than 60 percent, more than any other country.
    Changes of this magnitude are not made overnight, 
especially in such a deeply traditional society and such a 
challenging operational environment. The results of 
international civilian assistance are significant but fragile. 
For example, in 2002, there were only 900,000 Afghan children 
in school, and virtually none of them were girls. Today, there 
are nearly 8 million children in school and more than one-third 
of them are girls.
    Life expectancy in Afghanistan has increased from 42 years 
to over 62 years. Maternal mortality rates have declined by 80 
percent, and child mortality has decreased by almost 50 
percent. In 2002, only 6 percent of Afghans had access to 
reliable electricity. Today that number is 18 percent.
    In 2002, there were very few fixed telephone lines, and 
making a telephone call out of Afghanistan required a satellite 
telephone. Today, the combined phone networks in Afghanistan 
cover 90 percent of the population, and 85 percent of women in 
Afghanistan have access to a cell phone.
    Today, there are over 3,000 women-owned businesses and 
associations. Almost 20 percent of Afghans enrolled in higher 
education are now women. And women are active participants in 
the Afghan political process.
    As we enter the transition period, USAID's strategy is 
threefold. First, to maintain and make durable the gains in 
health, education, and the empowerment of women. Second, to 
mitigate the economic impact of the military drawdown. And, 
finally, to foster improved stability by supporting legitimate 
and effective Afghan governance, to include the 2014 elections.
    USAID places a high priority on ensuring that American 
taxpayer funds are used wisely. While many of the issues in 
Afghanistan are unique to that country, monitoring projects and 
challenging environments is something that our agency does well 
around the world. In designing the Afghanistan monitoring 
strategy, USAID has incorporated lessons learned from our 
monitoring programs in places like Colombia, Pakistan, and 
South Sudan.
    I will note that these programs which form the basis of our 
Afghanistan monitoring program have been reviewed in six 
separate Inspector General reports, as well as three reports by 
the Government Accountability Office.
    Finally, external audits provide useful oversight and 
discipline for our work, and complement and reinforce USAID's 
own efforts to ensure U.S. tax dollars are used effectively and 
efficiently. There are currently over 100 audits that are 
ongoing now of USAID programs in Afghanistan. The bottom line 
is that USAID will terminate programs if we feel a particular 
program is not adequately overseen or is not producing 
development results.
    With regard to the elections, a credible, transparent, and 
inclusive electoral process is essential and central to U.S. 
Government's transition strategy and is critical to Afghan 
stability and democratic development. USAID remains focused on 
supporting an inclusive and democratic process by supporting 
Afghan electoral authorities and by building the capacity of 
democratic stakeholders in Afghanistan to participate in a 
robust and informed way.
    USAID supports independent domestic observers, civil 
society, media, political parties, helping them appropriately 
engage in the democratic process. USAID is also supporting the 
participation of women in all aspects of the electoral process. 
We are promoting the hiring and training of female polling 
staff, promoting public outreach to women voters by civil 
society and public officials, and enhancing the ability of 
women candidates to campaign effectively.
    In conclusion, I have worked in Afghanistan as a member of 
the Department of Defense, USAID, and the Department of State. 
I have attended ramp ceremonies for the fallen heroes of all 
three organizations. I am personally, and USAID is 
institutionally, keenly aware of the enormous sacrifices made 
by Americans to build a secure and stable Afghanistan. And we 
fully understand the need for constant vigilance, particularly 
during this delicate transition period.
    We are making tough decisions, we are prioritizing our 
investments, and we are looking for things that have the 
greatest potential for long-term success.
    As USAID navigates through the 2014 transition period, we 
continue to be committed to safeguarding taxpayer funds and 
ensuring that the remarkable development goals and development 
progress made in Afghanistan is maintained and made durable.
    It is an honor to be able to share with you today a small 
glimpse of what USAID is doing in that regard. I look forward 
to your questions.
    [The prepared statement of Mr. Sampler follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Chairman Royce. Well, thank you, Mr. Sampler.
    Thank you for your good work, gentlemen, on all of these 
fronts.
    But as you are pointing out, Mr. Sampler, about the steps 
that are being taken concerning the election, the reality is 
that in 2009 President Karzai had his hand in the fraud-plagued 
election. And the concern I think many of us have is, what is 
being done to make certain that we don't have a repeat in this?
    We already hear some of his commentary about possibly 
postponing an election. All right? What steps are being taken 
to make certain that the international community has in place 
something that can stand up to his efforts to try to manipulate 
the election process? Should he try to do so again?
    Ambassador Dobbins. Well, I think both State and AID are 
working on this, so Larry may want to amplify. First of all, I 
would note that in 2009, although there was a great deal of 
fraud, there was also no doubt about who the winner was, since 
even if you disallowed for all of the fraud, Karzai was still 
20 points ahead.
    Chairman Royce. Well, that may be true. But the fact that 
he was willing to go in and----
    Ambassador Dobbins. No, I agree.
    Chairman Royce [continuing]. Commit the fraud is what is 
concerning to me, because when this is over Afghans have to 
have some level of confidence, and they know what he tried to 
do last time.
    Ambassador Dobbins. No. I mean, that was prefatory to 
saying that it is more serious this time because the election 
is likely to be closer.
    Chairman Royce. Right.
    Ambassador Dobbins. And it is important that the margin of 
victory not be smaller than the margin of fraud.
    Now, I think we are reasonably satisfied that the election 
preparations data are much better than they were in 2009 or 
2004. They are being undertaken in accordance with legislation 
rather than a Presidential decree.
    Chairman Royce. Right.
    Ambassador Dobbins. The legislation has been fully followed 
with reasonable adherence to its provisions. The Electoral 
Commission seems to have a strong leadership, and so far has 
made decisions which are broadly accepted by most of the 
candidates as fair.
    The international community, and the United States in 
particular, are continuing to follow this closely and render 
support in a number of sectors, and I think Larry can expand on 
that.
    President Karzai has not said anything to date which would 
indicate any desire to postpone the election. Everything he 
said, privately and publicly, to us and to everybody else we 
know of is consistent with his desire to conclude this election 
on time and to leave office on schedule.
    There is a lot of suspicion, as you say, based on earlier 
experiences. And in any new democracy that kind of suspicion 
is, in any case, endemic. But for the moment, we haven't seen 
any evidence of such----
    Chairman Royce. This is encouraging. I did want to ask 
Larry Sampler about specifically, if I could, the election 
monitors, because I think that's one area where we are playing 
a pretty important role. The security forces, the election 
monitors, particularly female officers, since that is necessary 
in this environment to sort of screen women voters as they come 
in. We want to make sure all women have the ability to vote in 
this situation, that all Afghans and young people have the 
ability to cue up and have their ballot cast. Give us a quick 
update on that front.
    Mr. Sampler. Thank you, Mr. Chairman. The U.S. is 
contributing about $100 million to this election. Of that, 
roughly $55 million is going into a UNDP basket fund to support 
the elections. That provides the technical assistance that will 
help the Afghan Independent Electoral Commission conduct the 
elections in a way that is as free and fair and independent of 
fraud as can be done.
    The other $45 million we are retaining and investing 
bilaterally in areas where we see particular need. Voting 
monitors and polling station monitors is one of those areas. 
Another is civil society engagement, particularly with respect 
to women's interest groups. And we are investing in technology 
that we really didn't have access to or we didn't have the 
sophistication to have access to in the last election.
    And as an example, I spoke yesterday about SMS technology 
that women in Afghanistan are now using to collaborate and 
coordinate their approach to their candidates to make sure that 
they are getting their issues on the platforms of all the 
candidates. So there are both technological and technical 
assistance ways that we are investing our resources in support 
of the elections.
    Certainly areas--there continue to be areas that concern 
us. One of them is the access of women to polling places. I was 
in Afghanistan a month ago, and each time I visit I go to the 
Independent Election Commission and get an update. They are 
aware of the problem, and they are working to fix it.
    Now, I can't promise you that their solution will be robust 
in every district of Afghanistan, but to be honest, having been 
engaged there now for 12 years, I am just pleased to see that 
they have a methodological approach to how they are identifying 
these problems and pushing and addressing them.
    They are putting money where the problems are. They are 
training women security, and they are training women polling 
place workers. And I think we will see an improvement--a 
dramatic improvement over 2009 in that regard.
    Chairman Royce. Thank you. My time has expired. I am going 
to go to Mr. Ted Deutch of Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Deputy Assistant Secretary Dumont, in a recent foreign 
affairs piece, former Ambassador to Afghanistan retired General 
Karl Eikenberry wrote that the counterinsurgency strategy 
failed in Afghanistan. Would you agree with his assertion that 
COIN was not successful in Afghanistan? And, if so, why didn't 
it work?
    Mr. Dumont. I would not agree with that, and the reason I 
say that is as we look at the gains that have been made to date 
in Afghanistan since we have arrived there, and with the 
support of 48 coalition nations, as well as the Afghan security 
forces, the strides made have been monumental. And I think it 
is too early for anybody to claim that a counterinsurgency 
effort has failed.
    The ANSF has been consistent in taking the fight to the 
enemy through this fighting season. They have done remarkably 
well. They have adopted the training and tactics that have been 
provided to them and taught them. Their police are stepping up 
to the plate more and more each day. And, quite frankly, the 
most recent fighting season that they have had this past summer 
has given them confidence and skill that they have not had in 
the past.
    They are certainly exceeding our expectations, and I 
continue that--I believe that will continue for the future. But 
to say that it is a failure I think is wrong.
    Mr. Deutch. And, as you know, many of our constituents want 
us--and they expressed this very clearly--want us to bring home 
every last U.S. soldier. Every one. So when the Department of 
Defense recommends the size of a residual force going forward, 
what factors do you consider? And what will the mission of 
those forces that might remain in Afghanistan after 2014 be? 
And, finally, to the extent you wish to comment, how would you 
respond to so many Americans who just simply think that it is 
time to bring everyone home?
    Mr. Dumont. Sir, I understand the position of the American 
people, and I have served in combat myself on three occasions, 
including a year in Afghanistan. So I understand the concerns.
    What I would say is is that our top priority is to prevent 
the return of al-Qaeda and any affiliated terrorist groups that 
can launch attacks on the United States from the country of 
Afghanistan. That is our first and foremost priority, and I 
think the American people understand that. I can assure you the 
American military understands that.
    As far as what the mission will be after 2014, given a BSA 
and an invitation to remain in Afghanistan by the Afghan 
people, is a train, advise, and assist mission to assist the 
Afghan security forces in further developing and advancing 
their skills and their capabilities into the future, so that 
they can assist with providing their own security and ensure 
regional stability.
    Like any emerging country, any emerging military force or 
police force, they will require training, assistance, and 
support generally as we provide with many other nations. But 
our mission after 2014 will be a train, advise, and assist 
mission, along with coalition partners, who will and have 
offered to remain there.
    And as Ambassador Dobbins said, BSA will be critical to 
that, and the Afghans are fully aware of that.
    Mr. Deutch. Thank you. And, Ambassador Dobbins, Mr. 
Sampler, if there were to be a negotiated settlement with the 
Taliban, do you believe that the Taliban would accept the 
provisions of the constitution? And, if so, would that be 
sufficient?
    Ambassador Dobbins. We have laid down three conditions for 
successful negotiation with the Taliban--that they accept the 
Afghan constitution, that they lay down their arms, and they 
break ties with al-Qaeda. And we would require all three of 
those for any solution that we would support.
    I don't see early breakthroughs in the negotiations. In 
fact, I am not sure that we will even be negotiating in the 
next few months. We have made efforts in the past. We are 
consistent in support of a reconciliation process, but it takes 
two to tango. And the Taliban, while they have been willing to 
talk to us, have not been willing to talk to the Afghan 
Government. And, frankly, it is the Afghans who have to 
negotiate peace.
    So I don't predict early advances in this sphere. I would 
hope that there would be at least some procedural steps, but I 
can't promise it. Over the longer term, we do believe that 
reconciliation is the only way the war is going to end, and the 
quicker you start the faster you will get there, even if it is 
going to be a multi-year process.
    Mr. Deutch. All right. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Royce. Thank you, Mr. Deutch.
    We go to Ileana Ros-Lehtinen.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chairman.
    As I had mentioned, we had met with President Karzai, as 
all delegations do when they go over there, and in our 
delegation we raised the concerns about his neighbor, the 
Iranian regime, the threat that that poses to our interests in 
the region.
    And Mr. Kennedy and Dr. Bera will probably agree that he 
dismissed the threat, that Iran poses no problem at all. ``But 
Pakistan, that is the real threat to stability for 
Afghanistan,'' he said. So it shouldn't come as a big surprise 
that this past weekend Karzai and the leader of Iran, Rouhani, 
announced the agreement of a long-term strategic pact that 
ranges from political cooperation to economic and security 
partnerships, once again undermining and jeopardizing the U.S.-
Afghanistan relationship.
    What is Karzai's calculus here? Is he trying to hedge his 
bets by cozying up to Iran and being outwardly defiant to the 
U.S.? What is his thinking? If you could give us some insight 
into that.
    And while in Afghanistan and during our hearings, I also 
expressed my concerns about the status of the counternarcotics 
operations in post-drawdown Afghanistan, and we have been 
talking about that this morning. We were told that due to lack 
of personnel, these U.S.-led counternarcotics operations will 
be severely limited in scope. The latest numbers indicate that 
this was a record year for poppy cultivation in Afghanistan, 
and this issue of counternarcotics operations is not getting 
the attention it rightfully deserves considering that terrorist 
activities are typically funded through narcotics.
    If we can't conduct the kind of operations needed to reduce 
the poppy production, and if we don't have enough manpower now 
to fight this issue, what are we going to do next year and 
post-2014 to stop the illicit drug trade that generates over 
$100 million a year for terrorist groups?
    And I have been concerned that we are allowing the post-
2014 residual force size also to be decided politically, and 
that is purely numbers-driven rather than focused on the task 
and what is needed. What is the mission that still needs to be 
accomplished in Afghanistan?
    And, Mr. Dumont, you testified that a significant 
accomplishment since taking the lead is the Afghans have been 
increasingly able to maintain the gains made by our U.S. and 
coalition forces. And although that may be true now, what about 
in the post-withdrawal Afghanistan when they won't have quite a 
robust international force in support or possibly with no U.S. 
presence at all, if the President goes with the Zero Option? 
When the extremists no longer see us as an impediment to their 
goals and come against the Afghanistan forces in full force, 
will they be able to sustain those gains? What will happen?
    When do you think that we will get that troop level number 
from the White House and the State Department? I will leave it 
open to all of you.
    Thank you.
    Ambassador Dobbins. Thank you. Well, on Iran, as the 
chairman pointed out, Iran has provided arms and money to the 
Taliban. It has, however, provided a great deal of more money 
to the Afghan Government. It has quite substantial aid 
programs--most of them are quite benign--in Afghanistan.
    Iran has, in general, a very bad relationship with the 
Taliban. It almost went to war with them well before we did. 
But it is hedging its bet, and it is hedging it largely as part 
of the competition with the United States rather than because 
it has an inherent positive interest in the Taliban.
    Karzai has visited Iran once or twice a year since he 
became President 12 years ago, and so I don't attach a special 
importance to this particular visit. They haven't negotiated an 
agreement. They have simply announced an intention to negotiate 
an agreement. There is no agreement.
    Ms. Ros-Lehtinen. Thank you.
    Ambassador Dobbins. There is no draft on the----
    Ms. Ros-Lehtinen. Let me turn it over to the other two 
gentlemen.
    Thank you, sir.
    Mr. Dumont. Ma'am, I would say, first and foremost, we do 
continue working with Afghan counternarcotics police. They have 
made significant strides in enhancing case management and 
prosecutions, including the ability to develop evidence, 
arrests, conduct trials, and imprison those convicted. They do 
demonstrate a determination to uphold rule of law, and they are 
increasingly resistant to the influences of corruption.
    Several reasons for this, besides the training and 
assistance they get, they also know that the eyes of 
contributing nations and donor nations are on them, and they 
understand that it is important upon them, and incumbent upon 
them, to make changes. And they are making achievements in that 
regard.
    We work with them also on developing good practices for 
sharing intelligence with the police forces, so that they can 
get at their narcotics trade and that they can make strides. 
But, again, it is a work in progress, and it will require them 
to assume some responsibility and ownership themselves based on 
some of the good practices and training that they have received 
from us and other coalition nations.
    As far as the ANSF continuing to uphold the security gains 
that have been made and the future, the groundwork is there for 
the gains that they have made----
    Ms. Ros-Lehtinen. Thank you.
    Mr. Dumont [continuing]. Both as an institution and as a 
force.
    Ms. Ros-Lehtinen. Thank you so much. Sorry. Out of time. 
Thank you.
    Chairman Royce. We go now to Mr. Joseph Kennedy from 
Massachusetts.
    Mr. Kennedy. Thank you, Mr. Chairman. I want to thank all 
of the witnesses for testifying today. Thank you for your 
service.
    I was fortunate enough, as former Chairman Ros-Lehtinen 
indicated, to visit Afghanistan several months ago and had an 
extraordinary visit to see the work of--your work and the work 
of many of the folks you support. So thank you very, very much 
for all that you do for our country.
    I wanted to speak first, if I could, to Special 
Representative Dobbins. Mr. Ambassador, if you could focus just 
specifically a bit on one program that has come up in a number 
of meetings that I have had and that some constituents were 
concerned about about contractors and translators.
    So those who have performed extraordinary service to our 
military and civilian corps both in Iraq and Afghanistan, and 
are now subject to death threats and violence for their 
affiliated work with us, these are programs both in Iraq and 
Afghanistan, my understanding is, that have--they have run into 
some fairly severe challenges. I believe under the--in 2008, 
under the NDAA, Congress created 25,000 visas for Iraqis who 
worked for the government at least for a year. Another I think 
8,750 were created under the Afghan Allies Protection Act of 
2009, again, for our Afghan allies that worked for the United 
States in some capacity.
    Can you give me an outline, sir, just to the best that you 
can, one, of how many Afghans are eligible for that program? 
How many have been processed to date? What that timeline is, 
and what that backlog might be, the causes to that backlog, and 
what we can do to try to help?
    Ambassador Dobbins. Thank you. I believe that we were slow 
in getting this process into gear, and for the first several 
years the number of applicants who successfully completed the 
process was fairly low.
    Over the last year, however, this has significantly 
accelerated. In fact, I think the last year we had 10 times 
more successful completions than in the previous year. In fact, 
we are now approaching the legislative limit in the numbers 
available, and we are looking forward to working with Congress 
to extend our authority to bring in additional people.
    Mr. Kennedy. And how many more would you----
    Ambassador Dobbins. I think about 1,600 have been approved 
over the last year, if I remember the figures correctly.
    Mr. Kennedy. And how many more visas, sir, would you 
recommend, or would you be asking for help from Congress to----
    Ambassador Dobbins. I am not sure. I don't have the 
figures, but there is--in addition to the total number, I 
believe there is an annual number. And I believe that runs out 
in March or April, and we will need to work with Congress to 
get that extended because there will be additional people in 
the pipeline who would qualify.
    Mr. Kennedy. Okay. Thank you very, very much.
    And, Mr. Dumont, I wanted to build a little bit off of the 
chairman's comments or Ms. Ros-Lehtinen's comments about the 
poppy cultivation. When we were in Afghanistan, that was 
certainly something that--the point that was made over and over 
again. And I just wanted to see if you could outline--give any 
detail to enforcement strategy or a mechanism to try to get 
that trade under control.
    Mr. Dumont. We do have an interagency task force and an 
interagency coordination center that continue to provide 
intelligence support, training, and assistance to the 
counternarcotics police. They enable the Afghans to target 
narcotics traffickers and connections with insurgent groups. 
They go after the movements, communications, and financing 
involved, and groups involved in the drug trade.
    They are also working to provide support for investigations 
and for military operations that identify people who are 
involved in the drug trade, getting at their financing, getting 
at their cultivation, getting at their movements, getting at 
the delivery of those illicit drugs.
    Mr. Kennedy. Thank you, sir. I am sorry to cut you off. 
Time is limited.
    So, Mr. Sampler, if I could, there is obviously a piece to 
this which is an economic issue for the cultivation of the 
poppy from farmers that are choosing to cultivate poppy in 
terms of the economic income that they can generate from that. 
I would imagine that falls very much under USAID's auspices. 
Can you give a brief 30-second outline as a strategy there, and 
how you see that forecast going?
    Mr. Sampler. Yes, certainly. I appreciate that you 
recognize that. The issue with counternarcotics is not one 
purely of enforcement. We have to provide alternate 
livelihoods.
    USAID and the international donors writ large are working 
to create value chains for other crops that are either as 
profitable or even in some cases--saffron, for example--more 
profitable than poppy. The problem is it is a very, very harsh 
environment, and poppy is a very resilient crop. It doesn't--I 
mean, it does well in Afghanistan.
    Furthermore, the traffickers do all of the heavy lifting 
for the growers. So until we can get the value changed for 
saffron, fruits, and nuts, up to the level of what the 
narcotraffickers have for poppy, this is going to be a 
difficult and a challenging environment for us.
    Mr. Kennedy. I yield back. Thank you.
    Chairman Royce. Thank you, Mr. Kennedy. Mr. Kennedy, we 
want to recognize and thank you for you and Mr. Bera's trip 
there accompanying Ileana Ros-Lehtinen, both in terms of the 
oversight of this committee but also in visiting the troops in 
Afghanistan.
    We want to also recognize Joe Wilson for his recent trip 
there, but also for his son's service in the U.S. Army in 
Afghanistan. Mr. Wilson, it is your time.
    Mr. Wilson. Thank you, Mr. Chairman. And thank you, Mr. 
Chairman, for your interest in the security of Afghanistan, 
American security, even prior to 9/11. And people need to 
understand--and I want to thank each of you for the difference 
you are making--that indeed the attacks on our country 
September 11, 2001, originated out of caves in Afghanistan. We 
should never forget that, and that is why I am really grateful 
for our military service.
    I have had the opportunity--the USAID, I have seen the 
progress that has occurred. I have been there 12 times. My 
National Guard unit, former unit, served there, and led by 
Adjutant General Bob Livingston. It was the largest deployment 
of troops from South Carolina since World War II--1,600--and 
they really developed a great affinity for their Afghan 
brothers, so we saw that.
    And then I appreciate the chairman referencing my youngest 
son. First Lieutenant Hunter Wilson returned last Thursday from 
his service this year in Afghanistan. So as I talk about 
military service, it is quite personal. We are very proud of 
the 122nd Engineer Battalion, South Carolina Army National 
Guard, for their service there.
    I was particularly glad to see Representative Kennedy raise 
the issue of the special immigrant visas. I have had two sons 
serve in Iraq. They have actually cooperated in bringing their 
interpreters back to the United States for opportunity, for 
security. I am very grateful. I have had a nephew in the Air 
Force, Allen Heritage, served twice in Iraq.
    So I know firsthand--and, indeed, again with my son serving 
in Afghanistan--how the interpreters, the civilians working 
with the American--and our allies--how important they are. And 
so I want to--I do want to work with you and I specifically 
hope that we will have an extension agreement or proposal, 
Ambassador, as soon as possible, so we can give hope to the 
people in that country and thank them.
    I am also, though, concerned about Iranian weapons in 
Afghanistan. In August 2010, the Treasury Department sanctioned 
two Iranian Kuds Force officers for supplying funds or material 
to Afghan terrorists. That was just one example of Iran playing 
an active role in fueling the conflict in Afghanistan. What is 
the role that Iran is playing supporting the Afghan terrorists? 
What groups does Iran support, and why?
    Ambassador Dobbins. Well, as I said a little earlier, Iran 
supports both the government and the Taliban. Its dominant 
support is to the government and to largely benign aid 
programs, roads, and other things. But it does support--it has 
provided money and arms to the Taliban.
    The arms and money flows across the Pakistani border are 
much more important than across the Iranian border, but, 
nevertheless, Iran is playing both sides of the house. It is 
doing that not out of a love for the Taliban. They hate the 
Taliban. It is doing it as part of the competition with the 
United States, and as an effort to demonstrate to the United 
States that they could play tough, too, if we got into some 
kind of military conflict with them.
    So I think they are hedging their bet, and it is quite 
unhelpful, but it is not the totality of Iran's approach to 
Afghanistan, which with this very important exception has 
largely historically been quite coincident with our own. They 
were quite helpful in 2001, and, as I have said, they have had 
a significant and largely benign aid program for Afghanistan.
    Mr. Wilson. Well, Mr. Ambassador, you give real meaning to 
diplomacy and so--trying to keep an even balance on these 
issues. I want to thank you for your service.
    Ambassador Dobbins. Thank you.
    Mr. Wilson. And, additionally, I am concerned about Iran's 
sanction violations, that in January it was determined the 
Special Inspector General for Afghanistan Reconstruction that 
possibly there had been purchase of fuel for Afghan forces, in 
violation of the sanctions. Has that been stopped? And what can 
be done to make sure that the sanctions stay in place? Which 
have been so effective.
    Ambassador Dobbins. I am not familiar with the case. I 
assume this is a DoD purchasing issue, but I am afraid I can't 
give you a quick answer.
    Mr. Dumont. I am sorry, Mr. Wilson, I don't have that 
information either. I would have to take that back and get you 
a response.
    Mr. Wilson. And that is very important, because we have 
seen the success of the sanctions bringing pressure on the 
Iranian regime, and I am still hopeful that in particular that 
the sanctions have the potential of encouraging a Green 
Revolution.
    The young people of Iran deserve to have a better life than 
what they have now and what their prospects are, and so the 
sanctions have multiple purposes, but one is to truly assist a 
positive change in Iran.
    Thank you very much for your service.
    Chairman Royce. Thank you.
    We go now to Mr. Eliot Engel of New York.
    Mr. Engel. Thank you, Mr. Chairman, and let me thank our 
witnesses, very distinguished witnesses, for coming. Thank you 
for being here, and the three of you have what I consider to be 
some of the most complex and thankless jobs in the U.S. 
Government. And all of us appreciate your service very, very 
much.
    I share the frustration of my colleagues about the games 
that President Karzai has been playing. He ought to sign the 
BSA and stop the nonsense. I just want to stay that.
    Let me ask Ambassador Dobbins, and then perhaps Mr. Sampler 
can comment, much of the resource planning for post-2014 is 
happening in the field. But I would like to know what State and 
USAID here in Washington--how you are doing similar planning.
    What is the timeline in which the Afghanistan and Pakistan 
offices at State and USAID are going to return to the Bureau of 
South and Central Asian Affairs and Asia Bureau? And how are 
State and AID planning to address the new resource environment 
and the personnel changes that will occur with these 
transitions?
    Ambassador Dobbins. I wouldn't say at this point we have a 
firm plan. There is a general intention to look at the current 
bureaucratic arrangement in the State Department in light of 
the transition at the end of 2014 when we will move from a 
combat operation to a train, advise, and assist operation with 
a much lower number of troops.
    I think even then Afghanistan is likely to remain difficult 
enough, tricky enough, and important enough to the United 
States that you are going to want more than just a desk officer 
handling it. But I think there probably could at that point be 
a closer association with the Bureau of South and Central Asian 
Affairs, and we probably would move to some such arrangement.
    But it is--I think the actual transition is not very 
complex to make. It is simply changing some lines on--you know, 
on an organization chart. It is not as if people are going to 
have to be fired or recruited. So the fact that we haven't made 
a decision now a year and some months off doesn't mean we won't 
be able to make a timely decision.
    Mr. Engel. Thank you.
    Mr. Sampler. Ranking Member, the only thing I would add is 
that I think at USAID the bureaucratic changes will be driven 
by the effects we want to achieve in the agency. My two 
missions are the largest missions by an order of magnitude that 
the agency has anywhere in the world. So even if we were folded 
back into the Bureau, it would have to receive particular and 
unique attention.
    You asked what we do here in Washington to help the field 
team work on their resource allocation, and I think the single 
greatest value that we add is engaging the communities of 
interest here, whether it be your staff or members themselves, 
the diaspora community, the think-tank community. We get an 
awful lot of valuable input and a refining of our ideas by 
engaging in Washington and in supporting the field in that 
regard.
    Mr. Engel. Thank you. Ambassador, let me ask you this, a 
key element of the economic transition in Afghanistan is 
obviously regional trade, and a key barrier to getting Afghan 
goods to market is the barrier that exists between Pakistan and 
India, so that most Afghan goods wanting to get to Indian 
markets go through Iran.
    I know that India provided Pakistan with most favored 
nation trading status back in 1996. Could you provide an update 
on where the Pakistani announcement of giving India trade 
status currently stands, and a more general vision of the role 
connectivity in the region can have on stabilizing Afghanistan?
    Ambassador Dobbins. Well, we have raised this with the 
Government of Pakistan on several occasions, and, indeed, with 
the Government of India--specifically, the grant of most 
favored nations. It came up while Prime Minister Sharif was 
here in Washington during a visit a month ago.
    The Pakistanis have indicated their intention is to 
provide--is to grant MFN to India. The question is one of 
timing. We, of course, have urged it to be done as quickly as 
possible.
    I think--they didn't say so, but I think they may be 
waiting until a new Indian Government takes office. They 
probably want to do this in the part of a context of other 
improvements in the relationship.
    The Pakistani Government, under the new Prime Minister, has 
reached out and tried to improve that relationship. The 
Indians, for good, historical reasons, are approaching this 
very cautiously. They take the Prime Minister--they believe 
that the Prime Minister is acting in good faith, but they are a 
little skeptical he can deliver on some of the things that they 
need if the relationship is going to progress.
    MFN for India would be a positive step, and, indeed, a 
general opening of the border to more commerce would also be 
very helpful for Afghanistan, as you have indicated. And for 
all of those reasons, we continue to support it.
    Mr. Engel. Thank you.
    Chairman Royce. We go now to Mr. Jeff Duncan of South 
Carolina.
    Mr. Duncan. Thank you, Mr. Chairman. And I would like to 
just take a few minutes to point out some of the taxpayer 
dollars that have been sent to Afghanistan and spent almost 
wastefully. And I would like to put an article from Bloomberg 
News in the record about planes parked in the weeds in Kabul 
after $486 million were spent. These are G-222 aircraft, some 
of which are sitting in the weeds, not being used. Those are 
taxpayer dollars that were spent to purchase those.
    We also spent somewhere between $25 million and $36 million 
on a 64,000 square foot unoccupied building in Camp 
Leatherneck, which in May 2010 the Commanding General, General 
Mills, recommended cancellation of the construction, and that 
was overridden by his superiors. And then, in May 2013, the 
building still sitting, not used, the Army Regulation 15-6 
investigation said we ought to convert that building to a 
gymnasium and spend more money converting it to a movie 
theater. That was overridden. The building is still sitting 
unoccupied. Thank goodness we didn't spend any more money.
    Two hundred thirty million dollars in spare parts in an 
inventory warehouse--there was no good inventory or 
accountability for those spare parts--these are vehicle parts--
and an additional $13 million in spare parts were ordered just 
in October 2013.
    I want to commend the work of Congressman Jason Chaffetz of 
the Oversight Committee who has been working with the Special 
Investigator of Afghan Reconstruction, or the SIGAR. He has 
identified fuel usage and waste and theft in Afghanistan. He 
has talked about the expenses of the hospital in Kabul where 
U.S. tax dollars have been wastefully spent. We could go into 
the Bank of Kabul fiasco and allocation of dollars there, but 
infrastructure projects that are all over Afghanistan and there 
is no oversight. These are in areas that are inaccessible to 
civilian employees.
    And I would like to point out--and I know the panelists are 
aware of this--but this is the Afghan oversight access in 2009. 
The shaded areas are areas that civilian contractors or U.S. 
employees had access to in 2009 to do oversight on U.S. 
taxpayer dollars being spent.
    If I flip over to the projected 2014 oversight areas, you 
will notice a stark contrast. I know it is difficult to see, 
but these gentlemen are aware of this. There are just little 
dots there. These are areas that U.S. inspectors did not have 
access to for oversight. These are U.S. taxpayer dollars. How 
much more money are we going to continue to spend in 
Afghanistan without proper oversight? And that is really what 
it is about.
    So I don't have any questions along those. I could go 
through a lot of other examples, but I think the American 
taxpayers that are watching understand that their tax dollars 
are being spent without a lot of oversight on the part of their 
government.
    So I would like to shift gears to Ambassador Dobbins. I 
think that is who I would address this to. But I am interested 
in the Special Immigrant Visa Program and the delays that are 
going on there, because Congress has recognized the unique 
dangers faced by Iraqi and Afghan civilians who worked on 
behalf of the U.S. Government by creating programs for these 
individuals to become lawful permanent residents here in the 
U.S.
    I have had an example of a gentleman I met in the 
Kandahar--excuse me, yeah, the Kandahar region of Afghanistan 
about 2 years ago. He was embedded with the military there, had 
acted as a translator, had taken up weapons to help defend the 
colleagues of the unit he was working with, and he was 
definitely threatened by the Taliban. His uncle was killed, 
other family members were threatened, and went through a 2-year 
process where officers from the unit that he was embedded with, 
other folks that knew this gentleman vouched for his service to 
America there in Afghanistan, but yet it took over 2 years.
    He was actually issued a visa by the State Department, and 
then it was revoked right before he left, and he had to go 
through months of trying to understand why it was revoked, and 
then it was reissued. I think it was reissued only after 
Congress got involved questioning why, but--so I ask, why have 
there been so many delays in the Afghan SIVs, Ambassador? And I 
am assuming you are the right one to ask that question.
    Ambassador Dobbins. No, I think that is right, sir. I think 
we have--we were slow in the early years to implement this 
program. Over the last year, however, it has accelerated 
significantly. I think there were 10 times more visas issued 
this year than there were a year ago. And, in fact, we are 
approaching the limit of the program. We will run out of 
numbers shortly, and we will want to work with Congress for an 
extension of the program, since there will be additional people 
who will qualify if we have additional numbers.
    On specific cases, I mean, we have to determine that they 
did work for the U.S. military. We have to determine that they 
are under threat. That depends in part on where they live, and 
there are other security-related concerns. I can't explain any 
particular case. I know the case that you are referring to. And 
within I think 2 or 3 weeks, maybe even less, of the visa 
denial it was then reissued, as you indicated.
    Mr. Duncan. And I appreciate the assistance on that, and 
got the gentleman here.
    Mr. Chairman, I did want to put this in the record, and I 
would----
    Chairman Royce. Without objection.
    Mr. Duncan. Thank you.
    Chairman Royce. We go to Mr. Ami Bera of California.
    Mr. Bera. Thank you, Mr. Chairman. Thank you to the 
witnesses.
    As has been mentioned previously, I had the opportunity 
over Memorial Day to visit Afghanistan with Congresswoman Ros-
Lehtinen as well as my colleague, Mr. Kennedy. When we were 
there, we met some of the most remarkable young men and women 
in our troops, and, you know, I really do want to praise our 
troops for meeting every mission and, you know, for the 
wonderful job that they have done.
    We also had the opportunity to meet with Mr. Karzai, and in 
that meeting--this was back in May, you know, he unequivocally 
expressed a desire to get a BSA done fairly quickly and, at the 
same time, unequivocally said, you know, he has no desire to, 
you know, stand for election again and wanted to see the 
elections that are coming up in 2014 take place without any 
interference.
    Given that the Loya Jirga has supported the BSA and now Mr. 
Karzai is backtracking, you know, I would make the observation 
that this is--he happens to be someone who we have to negotiate 
with, but he is not someone that I would call an honest broker 
and an easy one to negotiate with.
    I also had the opportunity to visit India and chat with our 
allies in India, who have made significant investments in 
Afghanistan, over $2 billion in investments in infrastructure 
and projects like the Salma Dam. And others also have had the 
opportunity to meet with business groups like CII and FICCI, 
and major Indian multinationals like the Tata Group and the 
Mahindra Group, that are interested in making investments and 
helping fill the void that will occur regardless of whether 
there is a BSA or not as we start to drawdown and drawdown our 
own investments.
    Their major concern, though, is the security situation 
there. In addition, as I have met with the Indian Government, 
Indian dignitaries, there is also a very real concern that 
hardened, trained Jihadi fighters will start shifting over to 
the India and Pakistan border, where we are already seeing a 
flareup, and, you know, increasing incidence.
    Given that--and maybe this is a question for Ambassador 
Dobbins--what can we do working with India to, one, you know, 
continue to maintain an economic structure in Afghanistan? You 
know, again, I do worry about as we drawdown, significant 
economic resources are going to come with that, as well as 
working with India on the India and Pakistan border as some of 
these fighters shift over. I am not sure Pakistan has control 
over these fighters either.
    So, you know, Ambassador Dobbins, your perspective?
    Ambassador Dobbins. Well, we do work closely with India on 
Afghan issues. I met with the Indian Foreign Secretary 
yesterday on this, for instance. President Karzai is visiting 
India later this week for a state visit, in fact.
    India has a significant aid program and significant 
investments. To the extent--probably the greatest contribution 
India could make, and Pakistan can make, in Afghanistan is 
improving their bilateral relationship. Improved relationships 
between India and Pakistan will have two effects on 
Afghanistan. One effect is it will greatly increase the access 
of Afghan trade to India via Pakistan, but, secondly, and 
equally important, it will reduce the competition between the 
two countries for influence in Afghanistan in a way that has 
often proved highly destabilizing.
    So we have been encouraging both Afghanistan--I am sorry, 
both Pakistan and India to overcome their differences in 
Kashmir, their differences over Afghanistan. And, you know, I 
think there is some hope with the new Pakistani Government--of 
course, the Indians have elections shortly--but it is an area 
that we are continuing to press.
    I don't think that there is any near-term danger of foreign 
fighters shifting from Afghanistan to the border with India, 
among other things because unfortunately the war in Afghanistan 
isn't over. But the Indian concerns are legitimate, and it is 
something that we do need to be careful about.
    Mr. Bera. Do you sense in your conversations with the 
Pakistani Government that there--I sense that the Indian 
Government certainly does want to see improved relationships 
with Pakistan as a mechanism of stabilizing South Asia as well. 
Do you sense that same, you know, desire from the Pakistani 
side?
    Ambassador Dobbins. I do, and I think the Indians do as 
regards the new Prime Minister and his civilian leadership. 
Now, in Pakistan traditionally the security sphere has been 
left largely to the military, and they have been largely free 
of civilian oversight or control. The last time Nawaz Sharif 
tried to exercise that kind of control he was overthrown by 
General Musharraf, so he has to be careful about how quickly he 
moves to assert civilian control to their military and a 
stronger civilian role in designing and implementing Pakistan's 
national security policy.
    I think the Indians--he has expressed himself very clearly 
that Pakistan can't be secure unless Afghanistan is at peace 
and relations with India are improved. And he has tried to move 
in both directions.
    I think the Indian Government takes him at face value and 
believes he is sincere. They are a little skeptical that he 
will prevail in exercising enough influence over the Pakistani 
military, and we will just have to wait and see. But we give 
him a fair chance of being able to do so, among other things 
because the Pakistani military now realize that their biggest 
threat is internal, and they realize that they need the 
political leadership to take responsibility for the kinds of 
sometimes harsh measures that will be needed to deal with that 
internal threat.
    Mr. Bera. Okay. Great. Thank you. I yield back.
    Chairman Royce. We now go to Adam Kinzinger of Illinois, 
who served as an Air Force pilot in Afghanistan and also served 
with Special Operations.
    Mr. Kinzinger. Thank you, Mr. Chairman. And thank you all 
for being here. Appreciate your service and taking the time 
with us.
    As the chairman mentioned in his opening remarks, I just 
came back from Afghanistan. Actually, we did Afghanistan and 
Pakistan. Pakistan is quite a complicated relationship and one 
that I expect will probably continue to be complicated.
    But, Ambassador, as you alluded to, I believe and I hope 
that the Pakistanis are actually starting to understand that 
the Taliban is actually their problem, too, and it is no longer 
a tool they can use to posture against India or whatever went 
into that whole I guess calculus there.
    The one point I want to make from this is the people of 
Afghanistan, there is a message that has not gotten out to the 
United States. The people of Afghanistan are good people. The 
people of Afghanistan want to live in freedom. The Taliban's 
approval rating in Afghanistan is something like 10 percent, 
slightly higher than Congress, but it is still about 10 
percent, which means the Taliban are not popular in 
Afghanistan.
    This is a message that I don't think has gotten out, and 
then Karzai is posturing to do whatever it is he calculates he 
wants to do. We met with him as well, and I have got to tell 
you, I got a very different view coming out of the meeting one 
on one with Karzai than what I have seen in the media and what 
he is spouting. I see a man who said, ``Hey, we want the United 
States to be here. We want a long-term relationship.'' And then 
for whatever domestic consumption he thinks he is doing he is 
actually doing more harm than I think he realizes. But they are 
good folks.
    And I am hoping that, you know, we learned our lessons from 
the complete withdrawal from Iraq, which was a terrible 
mistake, and I think is being shown all over the world as a 
terrible mistake, and I hope that we continue to press ahead 
with getting this BSA done and having a long-term commitment.
    A couple of quick points I want to make. As I mentioned, 
the Americans don't see the success in Afghanistan. I think 
Americans still think there is 150,000 troops that are marching 
up and down the hill, engaging in the Taliban, and we are 
taking the brunt of the casualties. The Afghan military is 
actually losing about 100 soldiers a week.
    They are taking the fight to the Taliban when they find 
themselves engaged. They don't have the air support that the 
American military has, but they are fighting very bravely. It 
is a completely different situation than what we saw even 2 
years ago.
    Secondly, so that is what Americans think. My concern--I 
just want to put this on the record. I can't think of the last 
time I saw the President of the United States tell the American 
people why we are in Afghanistan. I can't do that. Now, I 
believe we are in Afghanistan for good reason. I believe us 
remaining engaged in Afghanistan post-2014 is important. I 
can't remember the last time I have heard the President say 
that.
    The President recently, fairly recently, went to 
Afghanistan and did not meet with President Karzai. I thought 
that was an oversight. So there is things along that line.
    But let me get now to my questions. We are looking at a 
residual force, from what I am understanding, 9,000 to 10,000 
American troops and a few more NATO troops in that process. 
What was General Allen's recommendation in terms of a residual 
force? Mr. Dumont, maybe you can answer that, or whoever.
    Mr. Dumont. I am sorry, Congressman. I don't have that 
number off the top of my head.
    Mr. Kinzinger. Do any of you three know what General Allen 
recommended? Because I believe it was somewhere around 15,000 
to 20,000 American troops post-2014. I say that to say I am 
concerned that we are going to undershoot the amount of troops 
we have available in Afghanistan to do both counterterrorism 
and support, both in building the Afghan establishment and 
government and then also in supporting their troops engaged in 
the field.
    I think it would be very unfortunate for 20 years from now 
for us to read the history books and say that America was 5,000 
troops short of actually being successful in Afghanistan.
    We visited the prison, Parwan prison, in Afghanistan, and 
we visited--there is I think right now 59 TCNs in prison. Mr. 
Ambassador, do you have any idea like, what are we going to do 
with these TCNs that we continue to have? The Afghans obviously 
don't want them. I wouldn't either. And now we have to figure 
out, what are we going to do with them as we reach the post-
2014? Are any of you guys familiar with that situation and have 
any ideas for what we do?
    Ambassador Dobbins. Well, in general, we are going to have 
to do something with them by the end of 2014. Some of them will 
be turned over to the Afghans. Some of them will be returned to 
the country of origin when those countries undertake to deal 
with them appropriately.
    Mr. Kinzinger. Let me ask one more question, just because 
my time is running out. So now we are into this kind of 
reduction posture. In fact, I think the vast majority of 
American forces are now focused on withdrawing instead of 
necessarily taking the fight to the enemy. It is unfortunate, 
but how do you think the offensive went against Haqqani?
    Do you believe it was completed, or do you believe we are 
leaving too quickly to finish that fight against the Haqqani 
network? Mr. Sampler, let us start with you.
    Mr. Sampler. Thank you. I really don't have an opinion on 
the Haqqani network. I mean, I have worked in Afghanistan since 
2002. They have been there decades before that, so--but I don't 
have any opinion on the----
    Mr. Kinzinger. It would be nice if they were gone, though, 
wouldn't it?
    Mr. Sampler. It would, Congressman. It would.
    Mr. Kinzinger. Mr. Dumont, do you have any thoughts on 
Haqqani?
    Mr. Dumont. It is something, obviously, that we take 
seriously and that we follow and track closely and fight 
against each day. And it is something we remain focused on 
because it is serious to us.
    Mr. Kinzinger. Thank you.
    Mr. Dumont. And the Afghans understand that as well.
    Mr. Kinzinger. Thank you. Well, thank you all for being 
here.
    Mr. Chairman, I yield back.
    Chairman Royce. Thank you. We go now to Tulsi Gabbard of 
Hawaii who served as an Army officer in Iraq.
    Ms. Gabbard. Thank you very much, Mr. Chairman. Good 
morning. Aloha. Thanks for being here, and thanks for your hard 
work and your service, each of you.
    You know, we have seen different opinions and different 
perspectives here today through the committee on the issues in 
Afghanistan. I think these conversations reflect the 
conversations that we hear when we go back to our districts, 
that we hear in the public, about why there is an overwhelming 
public sentiment to bring all of our troops home, is that there 
seems to be a lack of a clear definition on what our mission 
is.
    What is the end state that our troops are trying to 
accomplish or that we are trying to accomplish there? Who is 
the enemy that threatens the United States in Afghanistan that 
our troops are fighting against? And when we say we need to 
accomplish the mission, what does that even mean? What does 
that look like?
    You know, when we look back to why we went there in the 
first place, Osama bin Laden is no longer a threat. Al-Qaeda 
has largely been decimated in Afghanistan. We see now, of 
course, pockets and threats coming from other countries and 
other regions from these terrorist networks. And we have also 
seen that because al-Qaeda has no allegiance to a specific flag 
or country that our best and most efficient way to deal with 
this threat is through some of the quick strike forces that we 
have successfully used in the past with some of these areas.
    You know, when we look at stability, people have talked 
often about stability in Afghanistan as being an end state. We 
have given many tools, training, infrastructure, to the Afghan 
people, the Afghan forces in order to attain this end state, 
but we also talk about the corruption, the other challenges 
that exist within the country, the tribal influences, which 
really lead us to understanding that this stability at the end 
can only be achieved by the Afghan people.
    So I have got three questions that follow kind of this 
structure. First is, with the bilateral security agreement, 
what are the next steps at this point, given what Karzai has 
said and his posturing in not looking at this until after the 
Afghan elections, and how long do we wait for him to make up 
his mind on what he wants to do?
    If eventually the bilateral security agreement is completed 
and agreed to, the remaining forces that are being projected to 
stay in Afghanistan have two missions or two purposes from what 
I have seen, and that is to train and assist and also a 
counterterrorism element. I am wondering what percentage of 
that projected--how those troops are broken up between those 
two missions.
    And, lastly, with that contingent that is left in 
Afghanistan, I think the BSA has kind of a 10-year timeline. 
What is the timeline for our U.S. presence there in 
Afghanistan? Is it a timeline? And if it is not a timeline, is 
it an end state that we are trying to achieve and say, ``Once 
this is achieved, then there will be no presence.''
    So, Ambassador Dobbins, if you could start really on the 
next steps of the BSA, and then, Mr. Dumont, talk a little bit 
about our forces there.
    Ambassador Dobbins. Okay. Well, we are there to prevent 
Afghanistan from again becoming a country with a government 
that supports al-Qaeda and allows it free reign within that 
country, something the Taliban did and which they would do 
again if they came back to power.
    We believe that concluding the BSA as soon as possible is 
necessary to sustain the large, broad, 70-nation coalition that 
supports Afghanistan. We believe it will begin to fragment, and 
we believe the Afghan people will become increasingly anxious 
the longer this goes on. But we haven't, at this point, set a 
date beyond which we are no longer prepared to wait. We simply 
believe there is a big cost in waiting, and it is a cost going 
to be paid for by the Afghan people.
    I will let Mr. Dumont comment on the relationship between 
the training assistant and CT elements in terms of the 
timeline. The assumption is that this is going to be a 
declining presence over time, that whatever decision is made 
for 2015 will be again reviewed in the course of 2015, with the 
hope that the number can be reduced in 2016, et cetera.
    The objective over time is an Afghanistan that is capable 
of securing its territory and its population without more than 
the normal level of external assistance that countries at that 
level of development receive around the world.
    Ms. Gabbard. Thank you.
    Mr. Dumont, quickly.
    Mr. Dumont. Yes, ma'am. As you know, the train, advise, and 
assist NATO mission is to assist the Afghans to become a 
capable force, reliable CT partner, so that we don't have to do 
the CT, and that will take place over time. There will be a 
combined effort for sometime, I imagine.
    The percentage of who will do what I don't believe has been 
worked out yet. It will remain to be seen how quickly the 
Afghans can assume more control for the CT fight in their own 
country, and how much assistance and support they will require 
from donor nations.
    Ms. Gabbard. Thank you.
    Thank you, Mr. Chairman.
    Chairman Royce. Thank you.
    We go now to Mr. Ted Yoho of Florida.
    Mr. Yoho. Thank you, Mr. Chairman. Thank you, gentlemen. 
Appreciate you being here.
    I want to build on some of the statements made by my 
colleague from Hawaii and Mr. Duncan in the regards of the 
money being spent, how much money we have spent. You were 
talking about $100 million for elections, and another $45 
million for equipment for elections. And with what Ms. Gabbard 
was saying, what is the end game? I mean, what are we hoping 
for? That they will have a stable government, one that is not 
wrought with fraud, waste, and abuse? And that will run a 
country that we can be good allies with and trading partners?
    Mr. Sampler, if you would, define the end game. I mean, 
what is our--what are we looking to gain? I mean, for success, 
what would you say that is?
    Mr. Sampler. There is two questions, and the larger end 
game I will yield to Ambassador Dobbins for. That is a policy 
question. With respect to the $100 million on elections, of 
which $45 million is the bilateral part, what we are hoping for 
is an election that the Afghans are happy with.
    I mean, our goal--I get asked the question quite often, 
what are we doing in Afghanistan? And the answer that I use as 
my own, it is not government policy, but it is a secure, 
stable, and democratic Afghanistan that governs this population 
justly and secures its geographic space.
    Mr. Yoho. Okay.
    Mr. Sampler. We don't want to have to go back.
    Mr. Yoho. Let me stop you there. How much effective is 
that--the ANSF right now? I mean, are they more effective? Are 
they standing up and--do they own the security and the--it is 
like they are fighting--they know it is their responsibility?
    Mr. Dumont. Yes, sir, they do. We have transitioned 
security to them. They are in the lead. They are taking the 
majority of casualties, and I venture to say close to 90 
percent of the operations the military is conducting are 
Afghan-led, Afghan-directed, Afghan-planned.
    In some others, for unilateral CT missions that we do, it 
is also in conjunction with them. They do have a presence on 
it. They are involved in the planning. But they are doing the 
majority of the fighting and taking the majority of the 
casualties.
    Mr. Yoho. How much of that effectiveness is based on us 
being there and our presence there?
    Mr. Dumont. Well, to get them to the point that they are 
at, it has been a long-term effort obviously.
    Mr. Yoho. Correct.
    Mr. Dumont. Now we are providing, depending on the level of 
the unit--for instance, there are counterterrorism forces. We 
provide very little assistance. We have a presence there, but 
they are skilled, they are capable, and they are taking the 
fight to the insurgent threat. And their regular ANSF forces, 
the conventional forces, are making strides every day and 
making great progress. We do have an advising mission with 
them, but they are in the lead.
    Mr. Yoho. Okay. Are we looking at some point at being able 
to pull out altogether? Is this going to be another permanent 
U.S. military base around the world that we have?
    Mr. Dumont. I don't envision a permanent presence as you 
speak about. I think what it will depend on is how well 
progress is made, how well stability in Afghanistan is in 
effect over time, and how well regional stability is in effect 
also.
    I think it will be a long-term sort of focused effort that 
will take review over a period of time to assess how well 
things are progressing and what the enduring threat is to the 
United States, if any.
    Mr. Yoho. All right. And going back to you, Mr. Sampler, 
you were saying that the infrastructure is built up and, you 
know, a lot more women are voting, a lot more women are in 
colleges and school, and that is a good thing. Is that going to 
be sustainable without our presence there? Is that something 
they believe in philosophically? Or is it just an ideological 
feeling--or not an ideological feeling but an ideal of ours 
that we are instilling upon them in a Muslim country that they 
won't maintain after we leave?
    Mr. Sampler. Congressman, that is a great question. It is 
not an issue of Islam; it is more an issue of Afghan society. 
And it is something that they are adapting as their own, and 
that is the only way that we will be resilient, is if they make 
it their own philosophy. Increasingly----
    Mr. Yoho. Without our presence, though.
    Mr. Sampler. Without our presence. I mean, the Afghans 
appreciate what we have done for them, but the Afghans 
themselves want us to--want to reach a point where they are 
self-sufficient and self-sustaining. Not all Afghans see it 
this way yet, but that is the progress that we are making.
    Mr. Yoho. Okay. And, you know, we have talked about the 
poppy fields, how we need to change the farmers and the whole 
production mechanism so there is a more profitable crop and get 
away from $100 million in poppies, yet we are giving $100 
million for elections. And we have talked about that for 25, 30 
years. I mean, it goes back to 1992, I mean, even before that. 
That is just a way of life. Is that really realistic, that we 
can change that without just changing the whole dynamics over 
there as far as the government and the structure and all of 
that, and, you know, Western ideologies?
    Mr. Sampler. Congressman, I hate to speak in generalities, 
but most Afghan farmers don't choose to grow poppies because 
they want to. They would rather grow food. It is just not 
profitable, and it is just not sustainable. So our job at USAID 
is to make it possible for them to make a living off of non-
criminal activities.
    Mr. Yoho. I appreciate your input. Thank you. I am out.
    Chairman Royce. Thank you.
    We now go to Lois Frankel of Florida. Representative 
Frankel's son served in Afghanistan and Iraq.
    Ms. Frankel. Yes. Thank you, Mr. Chair. I did have the 
privilege of visiting our troops in Afghanistan, and our folks 
from USAID, with Mr. Wilson. And I am glad his son has returned 
home safely, as has mine. And my son also served in USAID. He 
went back after the Marines and went back to Afghanistan.
    So I thank you all for your service. I am grateful for his 
service and everybody's service, but I still have to say that I 
remain skeptical of the money we are spending there and the 
waste and the fraud and all of that.
    But with that said, I do have a number of questions.
    First of all, you talked about education, and it is 
heartening to hear about the advancement in education. But 
specifically I would like--you know, there is a saying that--I 
don't know who I am quoting, but ``A great teacher under a tree 
is better than an ignorant one in a new American-built 
school.''
    So my first question is, what are the metrics that we are 
using in terms to assess whether there is success? Is it--are 
these test scores? Is it secular courses? Is there any anti-
West propaganda being taught? I mean, what is the metric used?
    And if the agreement is reached, and we do stay there, do 
you feel that you have a good understanding among all the 
agencies which groups are significant threats to the United 
States and which have goals that are only local? And in terms 
of the various programs, are we going to see the State 
Department lead on diplomacy, USAID on development, IC on 
intelligence? Or will the military continue to drive those 
lanes?
    Those are my basic questions. And if you have time, I would 
like to hear also the answer again from some of the others--I 
think Ambassador Dobbins did answer--why we should stay. I 
would like to hear the other gentlemen's response to that.
    Ambassador Dobbins. Do you want to start on the education, 
larry?
    Mr. Sampler. Yes, sure. On the education, you know, we can 
measure outputs our outcomes, and I am very much a proponent of 
measuring desirable outcomes. And one of the most positive 
things I think in Afghanistan in the recent years is the figure 
I cited in my testimony. Of Afghans entering higher education, 
20 percent are women. That would be unthinkable even a decade 
ago, because there were no women who had primary or secondary 
educations. And that is a sustainable achievement. Those women 
won't be rolled back to burkas, they won't be put back in the 
back corner of a compound.
    So in terms of outcomes, that is one of the metrics.
    Ms. Frankel. Excuse me. But you--but what are they 
learning? I am asking you, do you know when they get through 
the system what they have learned?
    Mr. Sampler. Yes. Afghanistan has entrance exams for their 
universities. I am not familiar with what they are. I have been 
told by others that they are comparable to other universities 
in the region, but I can get more information on that if you 
would like.
    Ambassador Dobbins. Let me just add one point on this, 
which is twice as many Afghans can read and write today as 
could 10 years ago. And that number will go up to three times 
as many 10 years from now if the kids in school now stay in 
school. So at a basic level, literacy is the outcome.
    Mr. Sampler. Your other question in terms of anti-Western 
bias and their education, USAID did a $27 million contract with 
the Ministry of Education to purchase textbooks. And we did 
have the right to refuse it. They were Afghan textbooks. They 
designed the curriculum. We didn't interfere in that, but we 
were satisfied that it was not prejudicial to the United States 
or the West.
    Ambassador Dobbins. Do you want to say something about why 
we are there?
    Mr. Sampler. Yes, ma'am. I appreciate the question of why 
we are there. I mean, I think this is something that all of the 
Foreign Service officers have to deal with. Why am I leaving my 
family and going to do this?
    I am struck, given my military time, that we can do this 
right or we can do it again. And our hope is that we will be 
able to create and support a secure, stable, and democratic 
Afghanistan that governs its population justly and secures its 
geographical space.
    I use that quite often with new Foreign Service officers 
going out, and it captures most of what I think are the reasons 
that we are there.
    Mr. Dumont. And, ma'am, with respect to the groups that we 
know are a threat to the U.S., and ones that are local, while 
we have those identified, there is no guarantee that the ones 
who are focused on local activities will not merge and compile 
resources and personnel to attack ourselves or other coalition 
nations. And that is of concern is that because some of these 
groups they affiliate and they have far-reaching effect than it 
was ever intended, and we are mindful of that.
    Ms. Frankel. What about driving the various programs? Can 
somebody answer that?
    Ambassador Dobbins. Yes. I mean, I think, you know, to be 
fair, I think that there is a division of labor between 
Defense, State, AID, and the intelligence community at the 
moment that is pretty clear. The collaboration--I have been in 
every administration since Lyndon Johnson's, and I think the 
collaboration among agencies is pretty straightforward and 
pretty amicable and as good as any administration I have seen.
    I don't see DoD rolling over the other agencies. I think 
they are--on the diplomatic side, they are quite a differential 
to the State Department, and of course we are to them on the 
military operations side.
    Ms. Frankel. Thank you, Mr. Chair.
    Chairman Royce. Thank you.
    We go now to Mr. Dana Rohrabacher of California.
    Mr. Rohrabacher. Thank you, Mr. Chairman. I don't know 
where to begin here. How much are we spending annually in 
Afghanistan now? How much is the cost to the American taxpayer? 
Anybody know?
    Ambassador Dobbins. I mean, I think each of us have 
somewhat different budgets there. The total budget I----
    Mr. Rohrabacher. Yes. What would be the--nobody knows the 
total budget of what we are spending in Afghanistan? It is a 
hearing on Afghanistan. Can I have an estimate?
    Ambassador Dobbins. I am sorry, Congressman. I can't give 
you----
    Mr. Rohrabacher. Well, I will just have to say that it is 
disheartening to have a briefing from our Government people who 
are involved in a project and they can't tell me how much we 
are spending annually in----
    Ambassador Dobbins. It isn't a matter of----
    Mr. Rohrabacher. Okay. How many killed and wounded have we 
suffered in the last 12 months? Mr. Dumont, would you know 
that?
    Mr. Dumont. Sir, I do not. I will have to get back with you 
on that one also.
    Mr. Rohrabacher. We don't know what the cost is, and we 
don't even know how many killed and wounded there are, and we 
are supposed to believe that you fellows have a plan that is 
going to end up in a positive way in Afghanistan? Holy cow.
    Ambassador Dobbins. We do know that the number of Afghan 
soldiers and police killed is 30 times the number of----
    Mr. Rohrabacher. You know what? I will have to tell you 
something. I am more interested in knowing how many Americans 
have been killed, because the Afghans have been killing 
themselves for centuries.
    And, you know, my father fought in Korea. And I remember 
when he told me, he said, ``Dana, all of our units--these young 
men who were with me out fighting in Korea, they would never 
have believed that we would be there after 50 years.'' They 
have--not one of those guys who went to Korea to try to stop 
the Communist takeover would have believed that that meant that 
we would have been committed for 50 years.
    Okay. We don't know how many are killed and wounded. We 
don't know what the cost is. So what will be the cost--you are 
presenting a plan now. What will be the cost to the United 
States per year annually after your plan is applied to 
Afghanistan, if they accept it?
    Ambassador Dobbins. Well, we haven't defined force levels 
there. I think the rough figure is probably about $1 million 
per soldier, so you could work out----
    Mr. Rohrabacher. And how many soldiers are we asking them, 
pleading with them, to let us send our boys into harms way? How 
much--how many soldiers is the plan to continue with our 
presence?
    Ambassador Dobbins. The President hasn't made that decision 
yet.
    Mr. Rohrabacher. Is there a proposal to Karzai on that?
    Ambassador Dobbins. No. And Karzai----
    Mr. Rohrabacher. I heard the number 14,000. Is that out of 
the ballpark?
    Ambassador Dobbins. If you are talking about a U.S.-NATO, 
everybody together, figure, that would still probably be 
somewhat high. Karzai in fact has expressed no interest in the 
size of the residual presence.
    Mr. Rohrabacher. You know, yesterday the Secretary of State 
was here, and he was telling me different things of why--what 
we can't do to make the mullahs mad. Of course, he wasn't 
putting it that way. But when I suggested that there was 
groveling going on, I think we are groveling again.
    Maybe this is the grovel administration. We are groveling 
to Karzai. I know Karzai. I have known him for 20 years. And we 
don't--and to suggest he--his family, we all know what his 
family has done. They have become filthy rich and we are 
dealing with a group there now centered around the Karzai 
clique. I mean, drug dealing, skimming of U.S. aid, cronyism at 
its worst, and we are dealing with Pakistan in order to make 
sure we have a presence there and where--meaning in 
Afghanistan, and the Pakistanis are doing what--we know the 
Pakistanis are behind the ISI, who they are financing. We know 
that they spend money that they end up getting from us to kill 
American soldiers. This is insanity.
    And then we have people who want to stay longer? It is time 
for us to get our butts out of that country. Maybe not for 
their sake, for our sake. We don't even care enough to know how 
much it is costing or how many killed and wounded that we 
suffered. That should be right on the tip of your tongue, 
because that is a cost to everybody's kid. I mean, everybody 
who has got a son there has to know that we--our number one 
priority is that person who we sent over there, we care about 
him enough.
    But we have some other agenda in Afghanistan. I don't see 
what we are going to accomplish. And we are asking what the 
goals are, if you believe that that is accomplishable in 
Afghanistan, I have got a bridge to sell you in California.
    Thank you.
    Chairman Royce. Mr. Gerry Connolly of Virginia.
    Mr. Connolly. Thank you, Mr. Chairman. Well, let me just 
say I do think--I say to the panel, Mr. Rohrabacher is right. 
How you can come to a congressional oversight hearing on this 
subject, with your titles, and not know how much we are 
spending every year, and not know how many casualties we incur 
every year, or this last year, I will say to the chairman of 
this committee is actually a stunning, stunning development. I 
have been involved in foreign policy hearings and oversight for 
a long time. Like that wouldn't be a question on the tip of 
one's tongue? But put that aside.
    Mr. Sampler, what is going to happen to the oversight of 
AID's projects in Afghanistan post-2014? Are you going to have 
to--is AID going to have to pull back from whole geographic 
chunks of Afghanistan for want of security?
    Mr. Sampler. Congressman, thank you for the question. We 
hope not, but hope is not a plan. In most countries that we 
work in around the world, we rely on host national security 
forces to provide areas that are secure enough for us to work. 
But there is a range from what I would call regular aid 
missions where that is the case to Afghanistan, and then in 
between we have places like Pakistan, Colombia, South Sudan, 
Yemen, where we have to come up with creative measures to 
balance normal operations against conflict operations.
    In Afghanistan post-2014, we have got programs scattered 
around the country. Some we will be able to continue to 
operate; some may have to be adjusted. It will depend on the 
security situation in the specific micro-area as opposed to the 
countrywide----
    Mr. Connolly. Are there parts of Afghanistan where you are 
operating now that absent something happening you have to plan 
for withdrawal or significant curtailment because of want of 
security? That clearly the Taliban is going to reassert itself 
in certain sectors of Afghanistan?
    Mr. Sampler. Congressman, I can't name a specific area, but 
categorically I think there certainly must be. There will be 
some place in Afghanistan that we are working today where a 
year from now the situation will have changed and we will no 
longer be able to work. We will have to readjust and pull back.
    Mr. Connolly. One of the concerns I had when I went to 
Afghanistan in 2009 was the emerging--of emergence of CERP as 
actually sort of a parallel, unregulated, no oversight stream 
of development assistance, economic assistance funding, 
entirely controlled by local commanders, our military 
commanders on the ground.
    I think it started out with great intentions, but it 
ballooned. It became fairly substantial, and it always worried 
me that it didn't get the attention, say, bilateral aid 
programs do. It is not really--you know, it is kind of ad hoc 
projectized. It doesn't get the kind of careful scrutiny and 
evaluation we would normally expect for any kind of normal aid 
project.
    What is the status of CERP funding? And are the concerns I 
had in 2009--do you think they have been resolved or addressed 
in the interim? And I ask that of any one of the three of you.
    Mr. Sampler. I will hit----
    Mr. Connolly. Sure.
    Mr. Sampler [continuing]. Mike speak to the current status. 
Your concerns in 2009 were not unfounded. Commander's Emergency 
Response Program money was to serve as a stabilization goal. 
And I have been in the military, and I have been at USAID, and 
I can appreciate the value of what they were attempting to do.
    One of the ways that we, with our DoD colleagues, remedied 
this was by putting senior development advisors at each of the 
regional combatant commands, and then embedding USAID officers 
all the way down to the PRT and the district support team 
level. So from 2007, '08, and '09, to the most recent times, I 
think we have addressed this. We no longer see CERP programs 
that don't have a developmental eye cast upon them.
    Now, that doesn't always mean that CERP programs are what I 
would consider good long-term development programs. But that is 
not their goal. Their goal is to satisfy something that that 
tactical commander needs at that moment. And we tolerate that; 
we work with CERP to make sure that it integrates into good 
development. Even if at the moment it may not be a 
developmentally sound project, it does serve a military goal.
    Mr. Connolly. Mr. Ambassador, any comment on that?
    Ambassador Dobbins. Well, obviously, CERP is dramatically 
reduced as a result of the reduction in----
    Mr. Connolly. I am sorry, Mr. Ambassador. Can you----
    Ambassador Dobbins. I am sorry. Obviously, CERP is 
dramatically reduced as a result of the reduction in U.S. 
forces. And I would guess as we move to a training, advise, and 
assist role, that it will be reduced to virtually zero. So 
whatever the problem was, I think it will be resolved in that 
sense.
    But I do agree with Mr. Sampler that over time AID and 
Defense created a joint mechanism for managing CERP that 
brought developmental considerations to bear on those 
expenditures.
    I might just mention, in response to your earlier questions 
about total levels of spending and casualties, that State and 
AID between them spend about $2 billion a year in Afghanistan 
at the moment. It was about double that 2 years ago.
    Casualties, about 21-, 2,200 killed in action since the 
beginning of the conflict, and about 20,000 injured.
    As to the cost of the troops, as I said, it is about $1 
million a day per troop, so we currently have 50,000 troops 
there. If that was a constant through the year, it would be $50 
million. It will be less than that because we are bringing 
those troop numbers way down over the next year.
    Mr. Connolly. Thank you, Mr. Ambassador.
    And I know my time is up. Thank you, Mr. Chairman.
    Chairman Royce. Thank you. We go to Mr. Brad Schneider of 
Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. And I thank the 
witnesses for your time here, but also critically for the 
service you give to our country.
    I want to repeat what--some of the sentiment that has 
already been shared--the supreme disappointment in President 
Karzai's refusal to sign the bilateral security agreement and 
his game-playing with it at a time--as, Ambassador Dobbins, you 
have said--time is of the essence here. It has an ongoing 
impact.
    You know, being the last one to ask questions, it is a 
chance to wrap up. Ambassador Dobbins, you mentioned the war in 
Afghanistan is not yet over, and I think, Mr. Sampler, you 
touched on it and said it most eloquently. We either do it 
right this time or we do it all over again. And the goal, the 
reason we have invested so much in blood and treasure, is to 
eliminate a threat, but also long term to make sure that we 
have a stable government that is working for the prosperity of 
its people, and justly and regional security, and that is 
critical.
    What struck me listening to the testimony today is that--a 
common thread that you all touched on. Mr. Sampler, you said 
that continued U.S. engagement is critical to Afghanistan's 
stability and to protecting the vital interests of our own 
country.
    And, Mr. Dumont, I think you put it a little bit 
differently, but the ANSF can be a guarantor for a secure and 
democratic Afghanistan, but not without continued progress 
toward developing a sustainable and professional force. And I 
think that requires ongoing support.
    And, finally, Ambassador Dobbins, all recognize that 
without continued international, military, and economic support 
Afghanistan risks falling back into civil war. So it becomes, 
in some respect, a self-fulfilling prophecy.
    As we sit here in December and looking to a new year, we 
look forward to next summer and the summer fighting season 
again. So I guess my first question after a long introduction--
and, Mr. Dumont, maybe you are the one to look to for this--
what do you see as the critical success factors if the ANSF is 
going to stand up and successfully make it through next summer, 
and we are going to continue down a path we are hoping to see?
    Mr. Dumont. I think there are several things. One is, 
obviously, providing for a safe and secure election. They are 
quite adept at providing a secure environment for voter 
registration to take place, and there were no significant 
security interests during that time. And I think that is a good 
indicator. But their ability to secure the elections will be 
critical, and what that will do is that will enhance their 
confidence going forward.
    I also think as we drawdown and they realize that there is 
less coalition presence, how well they continue to take the 
fight to the insurgence will be key. They have been quite adept 
at doing it during this fighting season. It has enhanced their 
confidence tremendously.
    What is going to be next for the ANSF is the ability to 
continue to train and equip their troops themselves, the 
ability to deploy their people where they need them, the 
ability to sustain their force based on the resources that they 
get from both donor nations and their own resources. Those will 
be the key indicators in the months and years ahead.
    Mr. Schneider. Mr. Sampler, you know, outside the context 
of the military--anticipated military challenges next summer, 
spring with the election, from your standpoint, what is--what 
are the greatest threats to your ongoing effectiveness in the 
next 12, 24 months?
    Mr. Sampler. It is something that was discussed in the 
hearing yesterday--I haven't heard it discussed today widely--
and it is the hedging behavior of Afghans in a current area or 
a current time of uncertainty and instability. If Afghans have 
a sense that there is a way forward, and if the elections go 
well, I think hedging behavior will diminish.
    But if Afghans feel that the international community is 
going to walk away from them and leave them to their devices, 
then hedging behavior will be things like returning to feudal 
warlords and ethnic warlords, continuing to salt away 
resources. It will encourage more corruption, not less 
corruption. So part of our job at USAID will be to encourage 
them that USAID's engagement in Afghanistan is not a short-term 
thing. We engage in countries for decades if there is a need 
and if there is support from the U.S. Congress.
    Our goal will be to convince the Afghans that we the U.S., 
and we the international community, are here to stay, so we can 
minimize the hedging behavior on behalf of the Afghans.
    Mr. Schneider. Does that hedging behavior--I mean, I am 
trying to put it in context, get my own mind around it. Does 
the hedging behavior lead to a more fractious Afghanistan, 
pulling it further away from that secure, just, increasingly 
prosperous Afghanistan? Is that the challenge?
    Mr. Sampler. Yes. I think hedging behavior is basically 
where family and clan leaders decide to focus on protecting 
their own, so they don't make business investments. They don't 
reach out to other ethnic groups. Their political decisions are 
going to be very clan-centric and very ethnically centric in a 
hedging environment.
    Whereas, if we can convince them that there is some 
stability and the opportunity to move forward, they will be 
more I think outgoing and more entrepreneurial.
    Mr. Schneider. Good. Thank you.
    Ambassador Dobbins, I had hoped to give you the final word, 
but I ran out of time. So I apologize. But, again, thank you 
very much.
    I yield back.
    Ambassador Dobbins. Thank you, sir.
    Chairman Royce. Well, thank you. Mr. Schneider, thank you 
very much for yielding back. We thank our members. We thank 
also the witnesses for being before us today.
    As we saw in Afghanistan early this morning, another car 
bomb exploded, this one outside the northern gate of the Kabul 
International Airport, and the Taliban claimed responsibility 
for this attack. Those carrying out the attacks had ties to the 
Haqqani network.
    In terms of the amount spent per month in Afghanistan, it 
is about $6.7 billion by the United States. This committee has 
oversight over this issue.
    I want to, again, thank the witnesses for their testimony 
today. But, as you know, there were a number of questions asked 
by committee members. If you can get back to those members with 
written answers to anything not answered today, and there will 
be some additional questions forthcoming from members of the 
committee.
    Thank you again for your testimony, and we stand adjourned.
    [Whereupon, at 12:04 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
